No. 20-1026
IN THE SUPREME COURT OF THE UNITED STATES

EAGLE TRUST FUND, ET AL., PETITIONERS
v.
UNITED STATES POSTAL SERVICE, ET AL.

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and by first-class mail, postage
prepaid,this 23rd day of July 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document 4,895 words, excluding the
partsof the document that are exempted by Supreme Court Rule 33.1(d). I declare under penalty of
perjury that the foregoing is true and correct. Executed on July 23, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2218

July 23, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case Management Specialist, Office
of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2218. Thank you for your
consideration of this request.

20-1026
EAGLE TRUST FUND
UNITED STATES POSTAL SERVICE, ET AL.

LAWRENCE J. JOSEPH
LAW OFFICE OF LAWRENCE J. JOSEPH
1250 CONNECTICUT AVE., NW
SUITE 700-1A
WASHINGTON, DC 20036
202-355-9452
LJ@LARRYJOSEPH.COM

